                                                                                    Issue Date
                                                                                    November 24, 2009

                                                                                    Audit Report Number
                                                                                    2010-NY- 1004




TO:                Vicki Bott, Deputy Assistant Secretary for Single Family Housing, HU



FROM:               Edgar Moore, Regional Inspector General for Audit, New York/New Jersey, 2AGA

SUBJECT: Ark Mortgage, Incorporated, North Brunswick, New Jersey, Did Not Always Comply
         with HUD/FHA Loan Origination Requirements

                                                HIGHLIGHTS

    What We Audited and Why

                     We audited Ark Mortgage, Incorporated (Ark Mortgage), a nonsupervised 1 direct
                     endorsement lender located in North Brunswick, New Jersey. Ark Mortgage was
                     selected for review because its default rate of 12.99 percent for loans with
                     beginning amortization dates from October 1, 2006, to September 30, 2008, was
                     significantly higher than the state of New Jersey’s default rate of 5.76 percent.

                     The audit objectives were to determine whether Ark Mortgage officials (1)
                     originated insured loans in accordance with U.S. Department of Housing and
                     Urban Development/Federal Housing Administration (HUD/FHA) requirements
                     and (2) developed and implemented a quality control plan that complied with
                     HUD/FHA requirements.

    What We Found
                     Ark Mortgage officials did not always comply with HUD/FHA requirements in
                     originating 11 of 12 loans reviewed during the audit. Specifically, (1) four loans
                     exhibited significant underwriting deficiencies such as inadequate verification of

1
    A nonsupervised lender is an FHA nondepository financial entity that has as its principal activity the lending or
    investing of funds in real estate mortgages. A nonsupervised lender may originate, underwrite, purchase, hold,
    service, and sell FHA-insured mortgages and submit applications for mortgage insurance.
           funds to close, insufficient cash reserve for certain property, and inadequate
           verification of income and liabilities; (2) two loans, including one loan with a
           significant underwriting deficiency, were not closed as they were underwritten;
           and (3) six remaining loans exhibited technical deficiencies such as having an
           inadequately verified employment history and excessive debt-to-income ratios
           with inadequate compensating factors. As a result, lenders were approved for
           potentially ineligible borrowers, causing HUD/FHA to incur an unnecessary
           insurance risk. These deficiencies occurred because Ark Mortgage lacked
           adequate controls to ensure that loans were processed in accordance with all
           applicable HUD/FHA requirements.

           Ark Mortgage had weaknesses in the implementation of its quality control plan as
           it did not always comply with HUD’s quality control requirements. Specifically,
           Ark Mortgage officials did not (1) perform reviews of all early payment default
           loans, (2) conduct quality control reviews in a timely manner, (3) conduct reviews
           for the rejected loans, and (4) follow the required reverification processes for
           loans it reviewed. As a result, the effectiveness of Ark Mortgage’s quality control
           plan, which was designed to ensure accuracy, validity, and completeness in its
           loan origination and underwriting processes, was lessened.

What We Recommend
           We recommend that the Deputy Assistant Secretary for Single Family Housing
           require Ark Mortgage to (1) indemnify HUD against future losses on four loans
           with significant underwriting deficiencies, (2) buy down one loan so that the
           value of insurance equals 75 percent of the value of the property if HUD is not
           provided with the additional documents to support that the property was owner
           occupied, and (3) implement its quality control plan to fully comply with HUD’s
           requirements. We also recommend that HUD’s Homeownership Center’s Quality
           Assurance Division follow up with Ark Mortgage officials within six months to
           ensure that quality control reviews have been properly implemented.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response
           Ark Mortgage officials agreed with our conclusion for quality control but
           generally disagreed with our conclusions and recommended corrective actions
           related to its underwriting. We provided the draft report to Ark Mortgage
           officials on October 6, 2009 and requested a response by October 22, 2009. They
           provided written comments on October 22, 2009.

           The complete text of the auditee’s response, along with our evaluation of that
           response, can be found in appendix B of this report.

                                            2
                              TABLE OF CONTENTS

Background and Objectives                                                     4

Results of Audit
       Finding 1: Ark Mortgage Officials Did Not Always Comply with HUD/FHA   5
                  Underwriting Requirements

       Finding 2: Ark Mortgage Had Weaknesses in the Implementation           11
                  of Its Quality Control Plan

Scope and Methodology                                                         14

Internal Controls                                                             16



Appendixes
A.   Schedule of Questioned Costs and Funds to Be Put to Better Use           18
B.   Auditee Comments and OIG’s Evaluation                                    19
C.   Summary of Underwriting Deficiencies                                     35
D.   Case Summary Narratives                                                  36




                                              3
                     BACKGROUND AND OBJECTIVES

Ark Mortgage, Incorporated (Ark Mortgage), became an approved U.S. Department of Housing
and Urban Development (HUD) nonsupervised direct endorsement lender in 1985. The
company originates loans and then sells them to other investors, banks, or mortgage banks.

Ark Mortgage currently originates all of its loans at its home office in North Brunswick, New
Jersey, since it closed its branch office in Saddle Brook, New Jersey, in August 2008.

Federal Housing Administration (FHA) mortgage insurance programs help low- and moderate-
income families become homeowners by encouraging lenders to approve mortgages for
creditworthy borrowers who may not be able to meet conventional underwriting requirements.
Through Direct Endorsement, approved lenders underwrite and close mortgage loans without
prior HUD review or approval. Approved lenders are responsible for complying with all
applicable HUD regulations and are required to evaluate the borrower’s ability and willingness
to repay the mortgage debt. These lenders are protected against default by FHA's Mutual
Mortgage Insurance Fund, which is sustained by the mortgage insurance premiums paid by the
borrowers.

Ark Mortgage underwrites loans using an automated underwriting system that can communicate
with the FHA Technology Open to Approved Lenders (TOTAL) Scorecard to evaluate borrower
creditworthiness for FHA loans. The FHA TOTAL Scorecard is developed by HUD to evaluate
the credit risk of FHA loans. The TOTAL Scorecard provides two risk classifications:
Accept/Approve or Refer. An "Accept/Approve" classification indicates that FHA will ensure
the borrower's loan with reduced documentation. If the loan receives a "Refer" classification, the
lender will be required to manually underwrite the loan based on obtaining all documentation
required by HUD Handbook 4155.1, REV- 5. Currently, a full-time employed underwriter and,
occasionally, the president of Ark Mortgage underwrite the loans. Ark Mortgage officials
outsource their quality control function to a third party contractor, and minimize their
involvement in the quality control process. From October 1, 2006, through September 30, 2008,
Ark Mortgage originated 331 FHA loans, including 151 refinancing loans, valued at
approximately $105 million for properties located in New Jersey. During this period, 43 loans
(12.99 percent) defaulted, including one loan for which a claim was paid by the FHA insurance
fund. Ark Mortgage’s default rate of 12.99 percent was significantly higher than the New Jersey
state average default rate of 5.76 percent.

The audit objectives were to determine whether Ark Mortgage (1) originated insured loans in
accordance with HUD/FHA requirements and (2) developed and implemented a quality control
plan that complied with HUD/FHA requirements.




                                                4
                                       RESULTS OF AUDIT

Finding 1: Ark Mortgage Officials Did Not Always Comply with
           HUD/FHA Underwriting Requirements
Ark Mortgage officials did not always comply with HUD/FHA requirements in originating 11 of
12 loans reviewed during the audit. Specifically, (1) four loans exhibited significant
underwriting deficiencies such as inadequate verification of funds to close, insufficient cash
reserve for certain property, and inadequate verification of income and liabilities; (2) two loans,
including one loan with a significant underwriting deficiency, were not closed as they were
underwritten; and (3) six remaining loans exhibited technical deficiencies, such as having an
inadequately verified employment history and excessive debt-to-income ratios with inadequate
compensating factors. As a result, mortgages were approved for potentially ineligible borrowers,
causing HUD/FHA to incur an unnecessary insurance risk. These deficiencies occurred because
Ark Mortgage lacked adequate controls to ensure that loans were processed in accordance with
all applicable HUD/FHA requirements.


    Significant Underwriting
    Deficiencies


                  HUD Handbook 4155.1, REV-5, entitled “Mortgage Credit Analysis for Mortgage
                  Insurance,” prescribes basic underwriting requirements for FHA-insured single-
                  family mortgage loans. According to the handbook, the lender must ensure that the
                  borrower has the ability and willingness to repay the mortgage debt. In addition,
                  chapter 3-1 of the handbook requires that the application package contain sufficient
                  documentation to support the lender’s decision to approve a mortgage. While this
                  decision involves some subjectivity, our review of 12 loans approved by Ark
                  Mortgage officials disclosed significant underwriting deficiencies in the approval of
                  four loans.

                  Ark Mortgage officials did not always (1) adequately verify the source of funds to
                  close, (2) ensure that the three-month cash reserve requirement was met for a three-
                  unit property, (3) properly verify the borrower’s employment and/or income, and (4)
                  sufficiently verify the borrower’s monthly debt payment liability. The deficiencies
                  noted were not independent of one another, as one loan may have contained more
                  than one deficiency.

                  The frequency of the significant deficiencies2 for the four loans is noted in the chart
                  below.

2
 A deficiency is considered material if its omission, non-disclosure or misstatement would cause/mislead users
when making evaluations or decisions (e.g. affects loan approval). For example, a liability (which increases risk) is
omitted and has significant impact on the loan being approved.

                                                          5
                            Areas of deficiencies                      Number of loans
                   Inadequate verification of funds to close             2 of 4 loans
                   Three-month cash reserve requirement                  1 of 4 loans
                   not met
                   Inaccurate disclosure of liability                     2 of 4 loans

                 Specific examples of these significant underwriting deficiencies follow:

                 For FHA case # 352-5504892, the lender did not report a $404 monthly loan
                 repayment and a $524 monthly payment for child support on the mortgage credit
                 analysis worksheet3. HUD Handbook 4155.1, REV-5, section 2-11A, requires the
                 lender to include the monthly housing expenses and any additional recurring
                 charges extending 10 months or more, such as payments on installment loans, in
                 computing the debt-to-income ratios. Rental income on the worksheet was also
                 overstated as the $1,500 monthly rental income was used to determine the
                 effective rent, whereas the appraisals in the files only supported monthly rental
                 income of $1,400. Since the debt to income ratio is the percentage of a
                 borrower’s monthly gross income that goes toward paying monthly obligations,
                 the decrease of the monthly payment and the increase of income will reduce the
                 ratio. After taking into consideration overstated monthly income and understated
                 liabilities, the back end debt-to-income ratio (total fixed monthly payment to
                 effective monthly income) increased to 58.04 percent, which exceeded the HUD
                 43 percent limit; also, the cited compensating factor of having a good savings
                 pattern was not supported. In addition, funds used to close the loan were not
                 adequately verified as five nonpayroll deposits totaling $2,572 and the balance of
                 a share account had not been verified. As a result, including the monthly $404
                 automatic loan repayment and removing the unexplained nonpayroll deposits,
                 would have resulted in insufficient funds being available to close the loan (see
                 appendix D-1).

                 For FHA case # 352-5574149, the lender did not adequately verify whether the
                 borrowers had cash reserves equivalent to three months’ principal, interest, taxes,
                 and insurance (PITI). HUD Handbook 4155.1, REV-5, section 1-8C, requires that
                 the borrower have reserves equivalent to three months’ PITI after closing on the
                 purchase transactions for three- and four-unit properties. The handbook also
                 provides that reserves cannot be derived from a gift. The coborrower’s checking
                 account was recently opened, and the account balance was used for the closing.

3
  The Mortgage Credit Analysis Worksheet (MCAW) is an underwriting form (HUD Form -92900) developed by
HUD to assist the lenders to determine the eligibility of FHA mortgage insurance applicants. The specific areas
include the borrowers’ information, settlement requirements/mortgage calculation, monthly effective income, debts
and obligations, future monthly payments, ratios (mortgage payment-to-income & total fixed payment-to-income),
seller’s contribution, and borrower rating.

                                                        6
                  However, the coborrower’s two-month bank transaction printout for the checking
                  account did not contain any deposits, and there was no earlier bank account
                  activity provided to support the source of the account balance. As such, the
                  lender did not obtain a credible explanation for the source of funds in this
                  checking account, as required by HUD Handbook 4155.1, REV-5, section 2-10B.
                  In addition, (1) the lender did not verify the rental history for the coborrower, and
                  (2) the loan had front end (mortgage payment expense to income) and back end
                  (total fixed payment expense to income) ratios of 38.60 and 49.53 percent, which
                  exceeded HUD’s 31 and 43 percent limits, without adequate compensating factors
                  (see appendix D-3).

                  For FHA case # 352-5611530, the lender did not disclose monthly child support
                  of $867 as a liability. As a result, the borrowers’ total debt-to-income (back end)
                  ratio increased to 62.04 percent without adequate compensating factors. In
                  addition, the percentage of nonresidential use of this three-story building4
                  appeared to be greater than 25 percent of the total floor space, because the space
                  designated on the first floor as the storage area for a residential unit was not used
                  for that purpose. Based on a site visit on July 17, 2009, the space appeared to be
                  an integral part of the commercial entity on the first floor, which means that one
                  third of the property seemed to be used as commercial space. HUD Handbook
                  4905.1, REV-1, section 2-6, provides that the nonresidential use of the property
                  shall not be greater than 25 percent. Therefore, if the total space for commercial
                  use is greater than 25 percent of the total floor space of the property, this loan
                  would not be eligible for the insurance (see appendix D-5).

    Closing Not in Compliance with
    Underwriting

                  Two loans were closed in a manner that was not consistent with how the loans
                  had been underwritten.

                  Specifically, for FHA case # 352-5594478,5 the lender allowed the borrower’s
                  employer to be added to the HUD-1 settlement statement and security notes
                  without being underwritten as a coborrower or cosigner. HUD Handbook
                  4155.1, REV-5, section 3-10B, indicates that the loan must close in the same
                  manner in which it was underwritten and approved. In addition, section 2-2A
                  requires the lender to determine the creditworthiness of all coborrowers/cosigners
                  by considering their income, assets, liabilities, and credit history. However, there
                  was no documentation showing that the lender had considered or evaluated the
                  creditworthiness of the borrower’s employer see appendix D-4).



4
  The subject property is a three-story building with the commercial space occupying the first floor and two
residential apartments occupying the second and third floors.
5
  This case is one of four cases with significant underwriting deficiencies.

                                                          7
           For FHA case # 352 -5513337, although the lender acknowledged that the
           borrower was married to someone other than the coborrower and both borrowers
           had different last names, the lender failed to verify the relationship between the
           borrowers. The affidavit of title signed by the borrower and coborrower at
           closing certified that one borrower would not occupy the property. However, the
           lender did not resolve this issue by determining who would reside at the property
           before it submitted the loan documentation to HUD for insurance. HUD
           Handbook 4155.1, REV-5, section 1-8B, indicates that when there are two or
           more borrowers, if one or more will not occupy the property as a principal
           residence, the maximum mortgage must be limited to a 75 percent loan-to-value
           ratio, unless there is documented evidence of a family or family-like relationship
           that is a longstanding and substantial relationship and not arising out of the loan
           transaction. The loan was closed with a 97 percent loan-to-value ratio when the
           maximum allowable loan-to-value ratio is 75 percent. Therefore, the loan should
           be written down to 75 percent of the value of the property (see appendix D-2).


Technical Underwriting
Violations

           The remaining six loans contained technical underwriting deficiencies that, while
           they resulted in noncompliance with HUD requirements, did not cause conditions
           serious enough to negatively impact approval of the loans.

           These deficiencies are summarized in the chart below.

                Technical underwriting violations          Number of loans
            Inadequate compensating factors                  4 of 6 loans
            Inadequate verification of income                2 of 6 loans
            Inadequate verification of employment            1 of 6 loans
            history
            Insufficient verification of income/cash          1 of 6 loans
            reserve during the interim period
            Insufficient verification of costs paid           1 of 6 loans
            outside of closing


           Specific examples of these violations follow:

           In four loans, Ark Mortgage officials listed compensating factors that were invalid
           and/or were not adequately documented in accordance with HUD Handbook
           4155.1, REV-5, section 2-13. For instance, job stability, job history, or good
           credit history was commonly cited as a compensating factor, although none of
           them was an allowable compensating factor according to section 2-13. The



                                             8
                 allowable compensating factors, such as excellent cash reserve after the closing
                 and excellent saving pattern were not supported by adequate documentation.

                 Income was overstated for two loans. For one of these loans, Ark Mortgage
                 officials did not (1) verify the coborrower’s employment for the most recent two
                 full years and (2) obtain an adequate explanation for two employment gaps, each
                 gap spanning more than two months, although HUD requires the lender to obtain
                 an explanation for any gap in employment spanning one month or more. For the
                 other loan, Ark Mortgage officials approved refinancing the loan without
                 verifying whether the borrower had enough cash reserves to support the mortgage
                 payment and other monthly obligations without incurring additional debts during
                 the interim period between loan closing and the restart of employment, as
                 required by HUD Handbook 4155.1, REV-5, section 2-7R.

                 In one loan, Ark Mortgage officials did not verify the outside-of-closing fees
                 ($425 for appraisal fee and $741 for hazard insurance premium for one year)
                 listed on the HUD-1 settlement statement, although HUD Handbook 4155.1,
                 REV-5, section 2-10, requires that all funds for the borrower’s investment in the
                 property be verified and documented.


    Conclusion


                 Ark Mortgage officials did not always comply with HUD regulations in the
                 approval of loans. As a result, HUD remains at risk for more than $1.6 million
                 for the value of four loans with significant underwriting deficiencies6 (see
                 appendix C). The final loss that HUD incurs will depend upon what HUD
                 realizes when it disposes of the property. HUD’s most recent data disclosed that
                 its loss rate is 42 percent. Net sales proceeds after considering carrying and sales
                 expenses may mitigate the amount of the claim paid. Loans for which HUD
                 remains at risk can be mitigated by requesting that the lender indemnify HUD. In
                 this case, the lender reimburses HUD for any insurance claim, taxes, interest, and
                 other expenses connected with the disposition of the property, reduced by any
                 amount recouped by HUD via sale or other disposition.

                 Appendix C of this report provides a summary of the underwriting deficiencies,
                 while appendix D provides the detailed case narratives.




6
 The amount of cost savings or funds to be put to better use on the loans for which indemnification is recommended
is estimated at $672,158 based on HUD’s 42 percent default loss experience.

                                                        9
    Recommendations

                 We recommend that the Deputy Assistant Secretary for Single Family Housing
                 require Ark Mortgage officials to

                 1A.      Indemnify HUD against future losses of $672,158 on four loans with
                          significant underwriting deficiencies.

                 1B.      Provide additional documentation for one loan for a property that was not
                          owner occupied to be insured at 97 percent of its value. If proper
                          documentation is not provided, Ark Mortgage officials should buy down
                          this loan by $79,8607 so that it equals 75 percent of the value or indemnify
                          HUD for the amount of the original loan.

                 1C.      Establish procedures to ensure that all HUD underwriting requirements are
                          properly implemented and documented.




7
 The difference between $272,250 (75 percent of the full value of $363,000) and the original loan amount of
$352,110 (97 percent of the full value) is $79,860.


                                                       10
Finding 2: Ark Mortgage Had Weaknesses in the Implementation of Its
           Quality Control Plan

Ark Mortgage had weaknesses in the implementation of its quality control plan as it did not
always comply with HUD’s quality control requirements. Specifically, Ark Mortgage officials
did not (1) perform reviews of all early payment default loans, (2) conduct quality control
reviews in a timely manner, (3) conduct reviews for the rejected loans, and (4) follow the
required reverification processes for the loans it reviewed. This condition occurred because Ark
Mortgage did not have adequate controls over the quality control review process while relying on
an outsourced contractor, which appeared to be unfamiliar with HUD requirements. As a result,
the effectiveness of Ark Mortgage’s quality control plan, which was designed to ensure
accuracy, validity, and completeness in its loan origination and underwriting processes, was
lessened.



    Early Payment Default Loans
    Not Reviewed

                 Loans that defaulted within the first six payments (early payment defaults) were not
                 reviewed as required by HUD regulations and Ark Mortgage’s own quality control
                 plan. HUD Handbook 4060.1, REV-2, section 7-6 D, requires lenders to review all
                 early payment default loans including the loans that become 60 days or more
                 delinquent within the first six payments. Of the loans approved by Ark Mortgage
                 officials during our audit period, at least 20 became 90 days or more delinquent
                 within the first six payments. Ark Mortgage officials reviewed only two of these
                 early payment default loans.

                 Ark Mortgage officials stated that privacy rules prohibit servicers from providing
                 Ark Mortgage with information on defaulted loans once they are sold. However,
                 Mortgagee Letter 00-20 announced the availability of HUD’s Neighborhood Watch8
                 system to allow all FHA-approved lenders to analyze their early default loans and
                 claims. Therefore, Ark Mortgage officials should have used Neighborhood Watch
                 to obtain data on the early default loans.

    Untimely Quality Control
    Reviews


                 HUD Handbook 4060.1, REV-2, section 7-6 A, states that loans must be reviewed
                 within 90 days from the end of the month in which the loan is closed. However,
                 Ark Mortgage’s quality control reviews of all 63 FHA loans that closed during

8
  The Neighborhood Watch system is a web-based software application that displays loan performance data for
lenders and appraisers, by loan types and geographic areas using FHA-insured single family loan information.

                                                       11
            our audit period were not completed within 90 days from the end of the month in
            which the loans were closed; e.g. for all loans that closed during the audit period,
            quality control reviews were not conducted until four to five months after loan
            closing.

            Further, Handbook 4060.1, REV-2, section 7-6 B, indicates that for lenders
            closing more than 15 loans monthly, quality control reviews must be conducted
            monthly and must address one month’s activity. However, Ark Mortgage’s
            quality control reviews were conducted bimonthly, although it closed more than
            15 loans monthly.


Rejected Loans Not Reviewed

            HUD Handbook 4060.1, REV-2, paragraph 7-8A(1), requires that of the total
            loans rejected, a minimum of 10 percent or a statistical random sampling that
            provides a 95 percent confidence level with 2 percent precision must be reviewed.
            However, for 25 loans rejected between June 1, 2007 and September 30, 2008, no
            quality control reviews were conducted.

Required Reverification
Not Sufficiently Conducted


            HUD Handbook 4060.1, REV-2, section 7-6 E, 2, states that the quality control
            program must provide for the review and confirmation of information on all loans
            selected for review. It further states that documents contained in the loan file
            should be checked for sufficiency and subjected to written reverification, and the
            examples of items that must be reverified include the borrower’s employment,
            other income, deposits, gift letters, alternate credit sources, acceptable sources of
            funds, and mortgage or rent payments. It also prescribes that if the written
            reverification is not returned to the lender, a documented attempt must be made to
            conduct a telephone reverification, and if the original information is obtained
            electronically or involved alternative documents, a written reverification must still
            be attempted. However, Ark Mortgage’s outsourced contractor for quality control
            reviews stated that he only verified income. The returned verification of
            employment from the borrowers’ employers was the only documented
            reverification of income. There was no other documented reverification including
            telephone reverification for the unreturned verifications of employment.

            In addition, HUD Handbook 4060.1, REV-2, section 7-6 E, 1, requires lenders to
            obtain new credit reports for loans, other than streamline refinance or loans that
            were processed using an FHA-approved automated underwriting system, when
            performing quality control reviews of loans. However, new credit reports were
            ordered for only 4 of 63 FHA loans reviewed during our audit period.



                                             12
Conclusion

             Ark Mortgage officials did not ensure that (1) all early payment default loans
             were reviewed, (2) quality control reviews were conducted in a timely manner, (3)
             quality control reviews for the rejected loans were conducted, and (4) the
             reverification processes for the loans were completed as required. This condition
             occurred because Ark Mortgage officials relied on an outsourced contractor for
             review and did not adequately monitor the process. As a result, the effectiveness
             of Ark Mortgage’s quality control process was lessened.

Recommendations

             We recommend that the Deputy Assistant Secretary for Single Family Housing
             require

             2A.    Ark Mortgage officials to implement a quality control plan in accordance
                    with HUD requirements to ensure that (1) all loans that defaulted within
                    the first six payments are reviewed; (2) quality control reviews are
                    conducted in a timely manner; (3) an appropriate number of the rejected
                    loans are selected for quality control review; and (4) for the selected loans,
                    all critical loan documents are reverified and new credit reports are
                    obtained as applicable.

             2B.    Ark Mortgage officials to monitor its quality control contractor’s quality
                    control review process to ensure that the quality control reviews are
                    conducted in accordance with HUD requirements.

             2C.    HUD’s Homeownership Center’s Quality Assurance Division to follow up
                    with Ark Mortgage in six months to ensure that the lender has
                    implemented the quality control procedures as required.




                                              13
                             SCOPE AND METHODOLOGY

To accomplish our audit objectives, we reviewed applicable laws, regulations, HUD handbooks,
mortgagee letters, and reports from HUD’s Quality Assurance Division. We reviewed independent
audit reports from Ark Mortgage’s independent auditor, interviewed Ark Mortgage’s staff, and used
the questionnaires completed by the staff and quality control contractor to obtain an understanding
of the auditee’s internal controls.

From October 1, 2006, through September 30, 2008, Ark Mortgage originated 331 FHA loans,
including 151 refinancing loans, valued at approximately $105 million for properties located in
New Jersey. We selected 25 of 43 defaulted loans, including 6 refinancing loans, from the
Neighborhood Watch system that were underwritten by Ark Mortgage with beginning
amortization dates between October 1, 2006, through September 30, 2008. We used the
following criteria to select the loans: (1) defaulted within 10 or fewer payments, (2) not
terminated, (3) claim not paid, (4) not indemnified by HUD, (5) not reviewed by the
Homeownership Center’s Quality Assurance Division9 , and (6) not streamline refinanced10.
After review of the preliminary sample of 25 loans with loan amounts totaling $8.7 million, we
selected 12 loans, including one refinanced loan, with loan amounts totaling $4 million, which
appeared to have significant underwriting deficiencies for on-site verification in Ark Mortgage’s
files. The results of our detailed testing only apply to the 12 loans tested and cannot be
projected.

We performed detailed testing and review of the underwriting procedures for the 12 loans. We
reviewed documentation from both HUD’s Homeownership Center loan endorsement files and
the loan files provided by the auditee. Our detailed testing and review included (1) analysis of
borrowers’ income, assets, and liabilities; (2) review of the borrowers’ saving abilities and credit
history; (3) verification of selected data on the underwriting worksheet and settlement
statements; and (4) confirmation of employment and gifts. In addition, we reviewed the
appraisal reports, a floor plan, and conducted a site visit to one property on July 17, 2009. We
also discussed issues with HUD and Ark Mortgage officials.

We reviewed Ark Mortgage’s quality control plan and the quality control review reports for 120
loans including 63 FHA loans along with the supporting documentation completed by the quality
control contractor to determine the sufficiency and timeliness of the quality control reviews
conducted on closed loans. We selected 3 of 25 rejected loans from the period June 1, 2007 to
September 30, 2008 to determine the adequacy of quality control reviews conducted for the
rejected loans.

9
  HUD Homeownership Centers (HOC) approves single family mortgages for FHA insurance and oversees the
selling of HUD homes. The Quality Assurance Division (QAD) is responsible for evaluating and monitoring lenders
in its territory to ensure that HUD/FHA approved lenders are originating quality loans and servicing FHA-insured
loans in compliance with the Department's requirements.
10
  Streamlined refinances are designed to lower the monthly principal and interest payments on a current FHA-
insured mortgage and must involve no cash back to the borrower, except for minor adjustments at closing not to
exceed $250. They can be done with or without an appraisal.

                                                        14
We performed the audit fieldwork at Ark Mortgage’s home office at 1254 Route 27, North
Brunswick, New Jersey, from April through June 2009.

We performed our review in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.




                                              15
                               INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following controls are achieved:

         Program operations,
         Relevance and reliability of information,
         Compliance with applicable laws and regulations, and
         Safeguarding of assets and resources

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. They include the processes and procedures for planning,
organizing, directing, and controlling program operations as well as the systems for measuring,
reporting, and monitoring program performance.



    Relevant Internal Controls
                We determined that the following internal controls were relevant to our audit
                objectives:

                   Program operation - Policies and procedures that management has
                   implemented to reasonably ensure that a program meets its objectives.

                   Validity and reliability of data - Policies and procedures that management has
                   implemented to reasonably ensure that valid and reliable data are obtained,
                   maintained, and fairly disclosed in reports.

                   Compliance with law and regulations - Policies and procedures that
                   management has implemented to reasonably ensure that resources use is
                   consistent with laws and regulations.

                   Safeguarding resources - Policies and procedures that management has
                   implemented to reasonably ensure that resources are safeguarded against
                   waste, loss, and misuse.
.

                We assessed the relevant controls identified above.

                A significant weakness exists if management controls do not provide reasonable
                assurance that the process for planning, organizing, directing, and controlling
                program operations will meet the organization’s objectives.



                                                 16
Significant Weaknesses


           Based on our review, we believe that the following items are significant weaknesses:

                  Ark Mortgage officials did not ensure that certain loans were processed in
                  accordance with all applicable HUD underwriting requirements (see
                  finding 1).

                  Ark Mortgage officials did not adequately implement its quality control
                  plan to ensure compliance with HUD’s quality control requirements (see
                  finding 2).




                                            17
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                 Recommendation       Unsupported 1/       Funds to be put to
                     number                                  better use 2/

                        1A                                     $672,158
                        1B                $79,860



1/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

     Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if HUD implements our
     recommendations to have Ark Mortgage indemnify four loans that were not originated in
     accordance with FHA requirements, it will reduce FHA’s risk of loss to the insurance
     fund. The amount above reflects HUD’s statistics reflecting that FHA has an average
     loss experience of 42 percent of the claim amount when it sells a foreclosed property.




                                             18
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         20
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4




Comment 5




                         22
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 6




                         23
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 7




Comment 8



Comment 9




                         24
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 10




Comment 11




Comment 12




Comment 13




                         25
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 14




Comment 15




                         26
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 16




Comment 17




Comment 18




                         27
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




                         28
                         OIG Evaluation of Auditee Comments

Comment 1   Ark Mortgage officials generally agreed with the quality control finding and has
            implement new quality control procedures that is responsive to our finding and
            recommendations.

Comment 2   Ark Mortgage officials stated that the QC vendor reviewed and confirmed
            information on all loans selected for review. However, according to our review of
            all FHA files subject to quality control review, the QC vendor did not document
            that all the information that was required to be reverified by HUD Handbook
            4060.1, REV-2, section 7-6 E had been reverified.

Comment 3   Ark Mortgage officials indicated that the underwriter properly applied discretion
            in applying flexible compensating factors to the qualifying ratios. However, the
            compensating factors cited by the lender were not allowable per HUD Handbook
            4155.1, REV-5, section 2-7A and properly supported. See the evaluation of
            comment 5.

Comment 4   Ark Mortgage officials indicated that the $85 difference in projected rental
            income was not material. They also stated that the verification of the co-
            borrower's overtime and bonus income was based on the 2005 W-2 IRS form,
            which showed total income of over $65,000 confirming that the total earnings
            were in excess of the coborrower's base salary. However, the verification of
            employment (VOE) from the coborrower’s employer indicated overtime and
            bonus incomes for the current year only, not for the past two years as required by
            HUD Handbook 4155.1, REV-5, section 2-7 A. Further, although the VOE was
            checked for the likely continuance of overtime income, it did not indicate the
            continuation of bonus income. Moreover, the actual amount of income on the
            2005 W-2 form was not $65,000; the W-2 showed wage income of $62,000.
            Accordingly, the total income amount for 2005 (past year) on the VOE and the
            lender's statement were overstated by $3,000. Monthly income was overstated by
            a total of $232 including $85 for projected rental income and $147 for
            unsupported overtime and bonus income, which resulted in the (back) debt to
            income ratio increasing to 58.04 percent, which is material due to the inadequate
            compensating factors.

Comment 5   Ark Mortgage officials stated that it was the underwriter's discretion to determine
            the applicable compensating factors and the extent to which ratios may be
            exceeded. The compensating factors listed included excellent job stability with
            the potential for increased earnings, excellent saving pattern, and completing
            credit counseling class. However, according to HUD Handbook 4155.1, REV-5,
            section 2-13, excellent job stability and completing credit counseling class are not
            listed as allowable compensating factors. Potential increased earnings and
            excellent saving pattern are allowable compensating factors as long as they can be
            supported by proper documentation. However, the files did not indicate any
            special job training or education in the borrowers’ professions to support potential
            increased earnings. Further, the borrowers have not demonstrated an ability to
                                             29
            accumulate savings, and they had a conservative attitude toward the use of credit.
            Both borrowers were discharged from Chapter 7 bankruptcy in April 2003, have
            made extensive use of credit, and made minimum payments, which resulted in
            their credit card balances being either close to or higher than their credit limits.
            Having a 401K plan may establish a saving pattern as the officials stated;
            however, it is not enough to support an excellent savings pattern, which HUD
            accepts as a compensating factor.

Comment 6   Ark Mortgage officials indicated that the borrowers had sufficient funds to close
            and that $2,600 of non-payroll deposits was not large enough to require
            verification of the source of the funds because the $2,600 could have been
            retained at home from the borrowers pay. Officials also stated that the two
            automatic deductions totaling $808 would have been covered by the pattern of
            payroll deposits, which exceeded the deductions. Nevertheless, HUD Handbook
            4155.1, REV-5, section 2-10 requires that all the funds for the borrower’s
            investment in the property be verified and documented. Ark Mortgage officials
            did not verify all the funds to close, as a result, the borrower was short $738 at
            closing as total verified cash was $6,307, while the funds needed to close was
            $7,045. As such, we are recommending this loan for indemnification.

Comment 7   Ark Mortgage officials stated that the relationship of the borrowers had been
            confirmed and they provided the closing attorney's letter dated 10/8/09 at the exit
            conference. The closing attorney indicated that the borrowers were father and
            daughter. However, there was no evidence in the file that the lender had
            confirmed the relationship between the borrower and the coborrower by the
            closing date and/or before the loan file was received by the HOC, even though
            officials knew one of the borrowers did not intend to occupy the premises.
            Further, although the borrowers had different last names, officials never obtained
            an explanation from the borrowers regarding their family relationship. HUD
            Handbook 4155.1, REV-5, section 1-8B, provides that when there are two or
            more borrowers, if one or more will not occupy the property as a principal
            residence, the maximum mortgage must be limited to 75 percent of loan to value,
            unless there is documented evidence of a family or family-like relationship, which
            is a longstanding and substantial relationship, and not arising out of the loan
            transaction. In addition, HUD Handbook 4155.1, REV-5, section 3-10, requires
            the lender to resolve all problems regarding title to the real estate, review all
            documents to ensure compliance with all conditions of the commitment, and
            submit the loan documents for insurance within 60 days of loan closing or
            disbursement, whichever is later. However, Ark Mortgage officials did not
            document that it had resolved the issues with the non-occupying borrower before
            the closing. Therefore, the mortgage should have been reduced to 75 percent of
            the loan to value.

Comment 8   Ark Mortgage officials provided an IRS 1099-R form and the 2-month bank
            statements with direct deposits that matched the distribution. As such, the
            verification of income deficiency for this case was eliminated from the report,

                                             30
              however, due to the other underwriting deficiency this loan is still recommended
              for buydown or indemnification.

Comment 9     Ark Mortgage officials stated that the loan was properly verified and, therefore,
              no buydown or indemnification should be justified. However, this loan is still
              recommended for indemnification based on the evaluation of comment 7.

Comment 10 Ark Mortgage officials stated that the bank statement covering two months before
           closing showed a balance of $16,300; therefore, sufficient funds had been verified
           to cover the closing and required reserves. Official also stated that the source of
           the funds for the down payment was the Ameridream program and the seller had
           made a concession at the closing. Further, because the letter from the bank
           confirmed that the coborrower was a co-owner of the bank account, the source of
           the funds was immaterial. However, HUD Handbook 4155.1, REV-5, section 2-
           10B, requires that all funds for the borrower’s investment in the property be
           verified and documented. Since the borrowers were required to pay $3,910 at
           closing, the lender should have verified the source of the funds. Further, HUD
           Handbook 4155.1, REV-5, section 1-8C, requires the borrowers to have reserves
           equivalent to three months’ principal, interest, taxes and insurance after closing
           on purchase transaction for three-and four-unit properties and further indicates
           that this reserve should not be derived from a gift. Although the co-owners
           (married couple) of the bank account gave the coborrower full access to use the
           balance of the checking account for the home purchase, without an adequate
           verification of the source of the funds in the bank account, the funds should not
           have been included as being available cash reserves. Therefore, the borrowers did
           not have the required three-month reserve of $11,736.

Comment 11 Ark Mortgage officials stated that the borrowers may not have individually
           satisfied all the compensating factors, but collectively the borrowers had
           sufficient compensating factors. Two compensating factors listed on the
           Mortgage Credit Analysis Worksheet were “good credit history” and “excellent
           reserves after closing.” Good credit history was not an allowable compensating
           factor as defined in HUD Handbook 4155-1, REV-5, section 2-13. In addition,
           section 2-13 indicates that any compensating factor used to justify mortgage
           approval must be supported by documentation. However, the compensating
           factor of “excellent reserve after closing” was not adequately supported because
           the borrowers did not have sufficient verified funds to close the loan as explained
           above.

Comment 12 Ark Mortgage officials stated that the initial and final applications both state that
           the borrowers reside with family and, therefore, officials did not need to verify
           rental payments. HUD Handbook 4155.1, REV-5, Section 3-1J, requires that the
           verification of rent be in the form of a direct verification from the landlord or
           mortgage servicer or through information shown on the credit report. When
           officials asked the coborrower about the different addresses shown on the pay
           stubs, drivers’ license, and the current resident address, the coborrower explained
           that he did not live with his family and lived at a different address. However, Ark
                                               31
              Mortgage officials did not verify the coborrower’s current living arrangement and
              the current rent payment. Section 2-3A requires the lender to determine the
              borrower's payment history of housing obligations through either the credit report,
              verification of rent directly from the landlord (with no identity-of-interest with the
              borrower), verification of mortgage directly from the mortgage servicer, or
              through canceled checks covering the most recent 12-month period; this was not
              done.

Comment 13 Ark Mortgage officials indicated that the loan did not go into default until there
           was a major fire at the premises, that the default was not due to any underwriting
           errors, and that HUD should wait for the settlement of any insurance claim.
           While a subsequent event such as fire or death of a borrower can be the cause of a
           mortgage default, the findings and recommendations for indemnification are
           based on the deficiencies noted in the underwriting of the loan.

Comment 14 Ark Mortgage officials determined that the employer had been added to the HUD-
           1 and the mortgage as an additional buyer after the initial application and that they
           were investigating their rights against the third parties. Officials indicated that at
           the time of the application they matched the address of the employer to the
           borrower’s payroll check. HUD Handbook 4155.1, REV-5, section 3-10B,
           requires that the loan close in the same manner in which it was underwritten and
           approved. Further, HUD Handbook 4155.1, REV-5, section 2-2A, requires the
           lender to determine the creditworthiness of all coborrowers/cosigners by
           considering their income, assets, liabilities, and credit history. Since the
           borrower’s employer took title as a co-owner of the subject property, he should
           have been considered as “coborrower,” and his creditworthiness should have been
           evaluated. Nevertheless, this loan did not close as it was underwritten.

Comment 15 Ark Mortgage officials stated that the underwriter followed the D.U. underwriting
           requirements by obtaining a verification of deposit for the asset verification.
           Officials stated that the borrower had accumulated his savings during the period
           of “seasonal” employment and opened the account during a period of “seasonal”
           unemployment and that the borrower’s employer had certified that the down
           payment was a bonus. HUD Handbook 4155.1, REV-5, section 2-10B, requires
           the lender to obtain a verification of deposit, along with the most recent bank
           statement, to verify savings and checking accounts. However, Ark Mortgage
           officials only requested a verification of deposit without any recent bank
           statements. HUD Handbook 4155, REV-5, section 2-10, requires the lender to
           verify and document all the funds for the borrower’s investment in the property.
           The borrower had opened his checking account while unemployed. Further, the
           borrower had only earned approximately $18,000 annually from his previous
           employment. As a result, officials did not obtain a creditable explanation of the
           sources of the funds in the bank account that had a current balance of $18,586.
           Furthermore, Ark Mortgage officials never obtained a credible explanation for the
           $6,000 earnest money deposit that had been paid by the borrower’s employer. As
           a result, since the verification of the assets was inadequate and the loan did not

                                               32
                    close as underwritten (comment 14), this loan is recommended for
                    indemnification.

Comment 16 Ark Mortgage officials stated that they selected the appraiser from the FHA
           approved roster and relied on the appraisal report, which indicated that the
           commercial space was less than 25 percent of the total living area. Officials
           indicated that there was no evidence that the property was not eligible for FHA
           insurance at the time of the closing and that the lender had no obligation to
           monitor the property’s use after closing. Mortgagee Letter 2005-06 reminded
           mortgagees that direct endorsement lenders who select their own appraisers must
           accept responsibility equally with the appraiser for the integrity, accuracy and
           thoroughness of the appraisal and will be held accountable by HUD for the
           quality of the appraisal. Ark Mortgage officials did not ensure that the appraisal
           report was accurate by documenting that they verified the residential use portion
           of the property with the commercial space, which was necessary for the property
           to qualify for FHA insurance. The photographs taken by the appraiser did not
           show residential storage on the commercial floor.

Comment 17 Ark Mortgage officials stated that the underwriter used their discretion to omit the
           child support obligation based on two notarized statements from the mother of the
           coborrower's children11. Both statements in the file were notarized by an Ark
           Mortgage official (the current underwriter) based on a faxed copy of a petition
           form for termination of child support. However, this petition did not have a date
           or any signatures. Further, the child support recipient’s name and social security
           number on this petition were different from the ones on the certification letter.
           This petition was faxed from an unknown source on 3/31/2008. Therefore, none
           of the supporting documents was considered sufficient to omit the child support
           obligation. In addition, based on the telephone inquiry made by OIG to the
           County Child Support division, the child support order was still in effect and the
           co-borrower's employer wages was still the source of the child support payments.
           Ark Mortgage officials did not adequately verify the child support obligation and
           excluded the monthly child support obligation in computing the debt to income
           ratios. Thus, the debt to income ratio (back end) increases to 62.04 percent when
           the child support obligation is considered.

Comment 18 Ark Mortgage officials explained that the borrowers had sufficient income to pay
           a delinquent $1,900 obligation. Officials obtained a verification of deposit on
           8/8/07, which was within 30 days of closing and may be used in lieu of a bank
           statement under Direct Underwriting. As a result, we eliminated the issue
           regarding the inadequate verification of assets from the report. However, we kept
           the issue for inadequate verification of liabilities, Ark Mortgage officials did not
           provide documentation to show that the obligation had been satisfied with the
           borrower’s funds and that there were sufficient reserves at the time of the closing,
           as required by Handbook 4155.1 REV-5, section 2-13G to qualify as a

11
     We referred to the child support recipient as the mother of the coborrower’s children because the coborrower
     insisted that he had never been married.

                                                           33
compensating factor. As such, since commercial space for this property was more
than 25 percent (comment 16), officials did not adequately verify child support
payments (comment 17), and there was no assurance that the borrowers’ funds
were used to eliminate the approximate $1,900 debt, this loan is recommended for
indemnification.




                               34
              Appendix C

                              SUMMARY OF UNDERWRITING DEFICIENCIES


                               Amount      Excessive
                              requested      ratios
   FHA                            for       without
   case                       indemni-     adequate                                                                 Not
  number           Unpaid      fication    compen-     Inadequate   Inadequate                    Inadequate     closed as      Other
                   balance         4/        sating      funds to   verification   Understated    verification    under-     deficiencies   Appendix
                                                                                                                                  1/
                   amount                   factors        close     of income      liabilities    of assets      written                   reference

352-5504892        $457,190    $192,020       X            X             X              X              X                          X           D-1
                        2/            3/
3525513337          N/A          $0                                      X                                                                    D-2

3525574149         $463,724    $194,764       X            X                                           X                          X           D-3

3525594478         $254,192    $106,761                                                                X            X             X           D-4

3525611530         $425,270    $178,613       X                                         X                                         X           D-5

               $1,600,376      $672,158        3            2            2              2              3            1             4          Totals


              Notes:

              1/     Each loan includes one or more of the following deficiencies: overstated rental income, incorrect debt-to-
                    income ratios, inadequate evaluation of credit report, inadequate cash reserve, insufficient verifications of rental
                    payment history, inadequate closing documents, inadequate verification of earnest money deposit, inadequate
                    verification of liabilities, excessive loan-to-value percentage, and possible deficiency on appraisal report.

              2/ The unpaid balance for this loan is $346,737. This loan was recommended for a reduction of the insured amount
                 of the loan because of a nonoccupying borrower, which results in a $79,860 reduction in the loan due to a
                 reduction in the loan-to-value ratio from 97 percent to 75 percent

              3/    No amount is included in the indemnification total to avoid double counting. However, if HUD decides to seek
                    indemnification for this loan, based on HUD’s current 42 percent default loss experience, the amount of cost
                    savings or funds to be put to better use on this loan would be $145,630 (42 percent of $346,737).

              4/    The amount requested for indemnification represents the unpaid loan balance multiplied by the loss rate of 42
                    percent, which is currently HUD’s statistic of the average loss when a foreclosed property is sold.




                                                                          35
Appendix D

                            CASE SUMMARY NARRATIVES

                                                                                              Appendix D-1
                                                                                                Page 1 of 3

FHA case # 352-5504892
Loan amount: $458,810
Settlement date: September 15, 2006
Unpaid principal balance as of May 31, 2009: $457,190
Default status: Bankruptcy plan confirmed

Pertinent Details:

A.      Understated Liabilities

The lender understated liabilities on the mortgage credit analysis worksheet for a loan repayment
and child support. The lender did not include a monthly loan payment of $404 for a $7,718 loan.
The lender used a $4,758 balance of a share saving account that was linked to the loan as an asset
for the available funds to close without disclosing the loan amount of $7,718. HUD Handbook
4155.1, REV-5, section 2-1A, requires the lender to include the monthly housing expenses and
the additional recurring charges extending 10 months or more, such as payments on installment
loans, in computing the debt-to-income ratios. If the monthly payment of $404 for the loan of
$7,718 was added to the monthly liability, the debt-to-income ratio would be increased (see
section D).

In addition, the lender did not adequately verify the borrower’s monthly child support payment
of $52412 and, therefore, failed to report it as the borrower’s liability, although the borrower’s
weekly pay stubs included the deduction of $121 as domestic relations. The lender used a letter
from a probation office as the court order for termination of the child support. However, based
on the telephone inquiry made by OIG to the County Child Support Division, the borrower’s
child support was not terminated until 2008. This would also increase the debt-to-income ratio
(see section D).

B.      Overstated Rental Income
C.      Inadequate Verification of Income

The lender did not properly verify and document the borrower’s projected rental income as the
monthly effective income. The mortgage credit analysis worksheet indicated that the
coborrower’s “other income” from renting the second unit was $1,275 (85 percent of $1,500).


12
  The monthly child support can be obtained by multiplying the weekly payment of $121 by 52 weeks and then
dividing the product by 12 months.

                                                      36
                                                                                    Appendix D-1
                                                                                      Page 2 of 3

However, the amount of the current rent and the market rent for the second unit listed on two
appraisal reports conducted by two different appraisers was $1,400. Based on the information
given in the file, the projected rental income should not have been more than $1,190 (85 percent
of $1,400), thus resulting in higher debt-to-income ratios than the stated ratios on the worksheet
(see section D).

The lender also did not adequately verify the coborrower’s overtime and bonus income. HUD
Handbook 4155.1, REV-5, section 2-7A, allows the lender to add overtime and bonus incomes if
the borrower has received such income for the past two years and it is likely to continue.
However, the verification of employment from the coborrower’s employer indicated overtime
and bonus income for the current year but not for the past two years. Therefore, the
coborrower’s overtime income of $147 should not have been counted toward the monthly
effective income. This would result in higher debt-to-income ratios (see section D).

D.     Incorrect Debt-to-Income Ratios
E.     Excessive Ratios without Adequate Compensating Factors
F.     Inadequate Evaluation of Credit Report

The lender did not calculate the debt-to-income ratios correctly because of its nondisclosure of
liabilities related to a loan, child support payments (section A), and overstated income (section
B). The mortgage credit analysis worksheet listed the mortgage payment-to-effective income
(front end) ratio as 33.47 percent and the total fixed payment-to-effective income (back end)
ratio as 48.63 percent. However, we calculated the front ratio as 34.18 percent and the back ratio
as 58.04 percent.

Mortgagee Letter 2005-16 states that the lender must describe the compensating factors used to
justify mortgage approval when the borrower’s mortgage payment-to-effective income ratio
(front end) and total fixed payment-to-income ratio (back end) exceeded 31 percent and 43
percent, respectively. Although the lender listed compensating factors on the worksheet, all
except one compensating factor were not acceptable based on HUD Handbook 4155.1, REV-5,
section 2-13. The factor related to “saving pattern” was not supported because the borrowers
withdrew or borrowed against most of their retirement funds and used their credit excessively.
For example, the borrowers’ credit report indicated that the borrowers opened 10 of 14 active
credit cards or charge accounts in 2005 and 2006. In addition, 6 of 12 open credit cards and
charge accounts exceeded their credit limits, and the balances of the remaining six accounts were
close to the credit limits.




                                                37
                                                                                   Appendix D-1
                                                                                     Page 3 of 3
G.     Inadequate Verification of Assets
H.     Inadequate Funds to Close

The lender did not verify or document that the borrower had adequate funds to close, although
HUD Handbook 4155.1, REV-5, section 2-10, requires that all funds for the borrower’s
investment in the property be verified and documented. According to the HUD-1 settlement
statement, the borrower was required to pay $7,045 at closing. The amount of the assets
available on the mortgage credit analysis worksheet was $9,687. However, this amount did not
take into account the fact that the borrowers’ checking account included nonpayroll deposits
totaling $2,572 from July 3 to August 15, 2006 for which the lender did not verify the source of
the funds. In addition, the lender did not verify the borrower’s share account balance after July
1, 2006; two monthly loan payments of $404 (see section A) should have lowered the balance of
the share account by $808. Thus, the unexplained nonpayroll deposits of $2,572 and the
deduction of $808 for payment of the loan should have resulted in the reduction of $3,380 from
the funds available to close, bringing the balance to $6,307, and the borrowers would not have
had sufficient funds to close the loan.




                                               38
                                                                                       Appendix D-2

FHA case # 352-5513337
Loan amount: $357,391
Settlement date: October 31, 2006
Unpaid principal balance as of May 31, 2009: $346,737
Default status: Partial claim of $22,417 was paid on May 24, 2009 - reinstated after loss
                 mitigation intervention

Pertinent Details:

A. Excessive Loan-to-Value Percentage

The lender closed the loan using a 97 percent loan to value percentage when the loan’s maximum
percentage should have been 75 percent. HUD Handbook 4155.1, REV-5, section 1-8B, provides
that when there are two or more borrowers, if one or more will not occupy the property as a
principal residence, the maximum mortgage must be limited to 75 percent of loan to value, unless
there is documented evidence of a family or family-like relationship, which is a longstanding and
substantial relationship, and not arising out of the loan transaction. However, during the origination
process, the lender did not verify the relationship between the borrower and the coborrower,
although the borrowers had different last names.

The affidavit of title signed by the borrower and coborrower at the closing certified that one
borrower would not occupy the property. HUD Handbook 4155.1, REV-5, section 3-10, requires
the lender to resolve all problems regarding title to the real estate, review all documents to ensure
compliance with all conditions of the commitment, and submit the loan documents for insurance
within 60 days of loan closing or disbursement, whichever is later. However, the lender did not
document that it had resolved the issues with the nonoccupying borrower. Therefore, it should have
reduced the amount of the mortgage to 75 percent of the loan to value.

Our review of public records indicated that the borrower purchased another property with the
spouse in a different state two months after the closing date of the subject property, using a
conventional loan.




                                                  39
                                                                                      Appendix D-3
                                                                                        Page 1 of 2

FHA case # 352-5574149
Loan amount: $467,168
Settlement date: April 30, 2007
Unpaid principal balance as of May 31, 2009: $463,724
Default status: First legal action to commence foreclosure/delinquent

Pertinent Details:

A.     Inadequate Funds to Close
B.     Inadequate Verification of Assets

The lender did not verify or document the source of all funds to close. HUD Handbook 4155.1,
REV-5, section 2-10B, requires that all funds for the borrower’s investment in the property be
verified and documented. The mortgage credit analysis worksheet indicated that the assets
available for both the funds to close and cash reserve were the coborrower’s recently opened
bank account with his relatives (a married couple). This account had a balance of $16,398 as of
April 17, 2007. The address used for this account was the relatives’ home address, and the
borrowers had never lived at that address.

As the documentation to support that there were sufficient funds required for the closing, the
coborrower provided the lender a letter from the bank stating that the account was opened on
January 1, 2007, and the coborrower was the co-owner of the bank account. The file contained
the account transaction history printout from February 2 to April 17, 2007. However, this
account transaction history did not show the source of the funds because no deposits were made
during this period. In addition, there was no earlier bank account activity provided to support the
source of the account balance. The lender verified three withdrawals made by the relatives, two
mortgage payments for their own property, and a personal check of $7,000, but did not verify the
source of funds for the closing.

The lender stated that since the bank statements covered the required 60-day period preceding
the closing, the underwriter did not deem it necessary (or required) to address account activity
beyond the mandatory period; however, since the lender was required to verify the source of all
the funds used to close the loan and the three-month cash reserve (section C), the underwriter
should have verified the source of the funds.

C.     Inadequate Cash Reserve

HUD Handbook 4155.1, REV-5, section 1-8C, requires the borrowers to have reserves
equivalent to three months’ principal, interest, taxes and insurance after closing on purchase
transaction for three- and four-unit properties and further indicates that this reserve should not be
derived from a gift. Although the co-owners (married couple) of the bank account gave the




                                                 40
                                                                                    Appendix D-3
                                                                                      Page 2 of 2

coborrower the full access to use the balance of the checking account for the home purchase,
without an adequate verification of the source of the funds in the bank account, the funds should
not have been included as being available cash reserves. Therefore, the borrowers did not have
the required three-month reserve of $11,736.

D.     Excessive Ratios without Adequate Compensating Factors

Mortgagee Letter 2005-16 states that the lender must describe the compensating factors used to
justify mortgage approval when the borrower’s mortgage payment-to-effective income ratio
(front) and total fixed payment-to-income ratio (back) exceeded 31percent and 43 percent,
respectively. The lender computed the front and back ratios to be 38.60 percent and 49.53
percent, respectively, on the mortgage credit analysis worksheet.

Two compensating factors listed on the worksheet were “excellent reserves after closing” and
“good credit history.” However, “good credit history” was not an allowable compensating factor
as defined in HUD Handbook 4155-1, REV-5, section 2-13. In addition, section 2-13 indicates
that any compensating factor used to justify mortgage approval must be supported by
documentation. The compensating factor of “excellent reserve after closing” was also not
adequately supported because the borrowers did not have sufficient verified funds to close the
loan based on sections A and B.

E.     Insufficient Verification of Rental Payment History

HUD Handbook 4155.1, REV-5, Section 3-1J, requires that the verification of rent be in the form
of a direct verification from the landlord or mortgage servicer or through information shown on
the credit report. When the lender asked the coborrower about the different addresses shown on
the pay stubs, drivers’ license, and the current resident address, the coborrower explained that he
did not live with his family and lived at a different address. However, the lender did not verify
the coborrower’s current living arrangement and the current rent payment.




                                                41
                                                                                    Appendix D-4
                                                                                      Page 1 of 2

FHA case # 352-5594478
Loan amount: $255,526
Settlement date: July 18, 2007
Unpaid principal balance as of May 31, 2009: $254,192
Default status: First legal action to commence foreclosure/modification started

Pertinent Details:

A.     Not Closed as Underwritten

The lender did not ensure that the loan was closed as it had been approved on the HUD-1 settlement
statement. Specifically, the loan was approved for one borrower; however, the HUD-1 and the
closing service letter included two individuals—the borrower and the borrower’s employer who was
not underwritten for the loan. Handbook 4155.1, REV-5, section 3-10B, requires that the loan close
in the same manner in which it was underwritten and approved.

HUD Handbook 4155.1, REV-5, section 2-2A, requires the lender to determine the creditworthiness
of all coborrowers/cosigners by considering their income, assets, liabilities, and credit history.
Since the borrower’s employer took title as a co-owner of the subject property, he should have been
considered as “coborrower,” and his creditworthiness should have been evaluated. In addition, the
title company conducted a background search on the “coborrower” and noted that the “coborrower”
had some public judgments including a state tax lien. However, the lender did not obtain an
explanation from the borrower or the borrower’s employer.

According to Neighborhood Watch, the borrower went into his first 90-day default after one
payment due to unemployment. However, our public search indicated that the new address of
the employer’s company was the same as the address of the subject property.

B.     Inadequate Closing Documents

HUD Handbook 4155.1, REV-5, section 2-2A, states that HUD does not permit an individual to
take an ownership interest in the property at settlement without signing the mortgage note and all
security instruments. However, based on the lender’s closing instructions to the closing attorney,
the lender did not require the borrower’s employer (coborrower) to sign the mortgage note and
addendum to the HUD-1, although he took an ownership interest in the subject property at
settlement by signing the mortgage (security instrument) and the HUD-1. Since the
“coborrower” did not sign on the mortgage note, he may not have the financial responsibility of
repaying the mortgage, although he has an ownership interest in the property.




                                                42
                                                                                  Appendix D-4
                                                                                    Page 2 of 2

C.      Inadequate Verification of Assets

HUD Handbook 4155.1, REV-5, section 2-10B, requires the lender to obtain a verification of
deposit, along with the most recent bank statement, to verify savings and checking accounts.
However, the lender only requested a verification of deposit without any recent bank statements.

HUD Handbook 4155, REV-5, section 2-10, requires the lender to verify and document all the
funds for the borrower’s investment in the property. The borrower opened his checking account
on October 30, 2006, while he was not earning any income. This fact was confirmed through the
verification of employment from the current employer and the previous employer, which
indicated that the borrower was not compensated in 2006 and he quit his previous job on July 30,
2006. Further, the borrower had only earned approximately $18,000 annually from his previous
employment. As a result, the lender did not obtain a creditable explanation of the sources of the
funds in the bank account with the current balance of $18,586 and the eight-month average
balance amount of $18,463

D.     Inadequate Verification of Earnest Money Deposit

HUD Handbook 4155.1, REV-5, section 2-10, requires the lender to verify all of the borrower’s
funds for investment in the property. If the account was opened recently or there was a large
increase in the account, the lender must obtain a credible explanation as to the sources of the
funds. The borrower’s employer made the deposit of $6,000 directly to the seller’s realtor by an
official bank check, which only showed the employer’s name as a reference. In addition, the
lender was provided with the bank transaction summary of the employer’s company showing the
debit of the same amount. Two months later, 10 days before the closing, the lender obtained a
letter from the employer that the deposit was the bonus check for the borrower, which was
promised to him before he started this new job. However, the employer’s explanation that he
was paying a $6,000 bonus to the borrower was not a credible explanation as the employer had
taken an ownership interest in the property.




                                               43
                                                                                                     Appendix D-5
                                                                                                       Page 1 of 2

FHA case # 352-5611530
Loan amount: $428,279
Settlement date: August 31, 2007
Unpaid principal balance as of May 31, 2009: $425,270
Default status: First legal action to commence foreclosure/modification started

Pertinent Details:

A.       Possible Deficiencies on Appraisal Report

The property may not have met HUD’s limitations on nonresidential use of the property. The
property was a three-story building with two apartments and commercial space on the first floor.
The total floor space was 4,078 square feet. The first floor had 1,000 square feet designated as
commercial space and 350 square feet13 designated as storage for the residential unit on the
second floor according to the appraisal. HUD Handbook 4905.1, REV-1, section 2-6, provides
that areas designed or used for nonresidential purposes shall not exceed 25 percent of the total
floor area. Storage areas or similar spaces, which are integral parts of the nonresidential portion,
shall be included in the total nonresidential area. Nevertheless, a site visit on July 17, 2009,
revealed that the space designated as storage for a residential unit did not appear to be used for
that purpose and appeared to be an integral part of the commercial entity on the first floor.
Therefore, since the percentage of nonresidential use appeared to be greater than 25 percent of
the total floor space, the loan should not have been eligible for FHA insurance.

B.       Understated Liabilities
C.       Excessive Ratios without Adequate Compensating Factors

The mortgage credit analysis worksheet did not include a monthly liability for $867 for child
support. As a result, the debt-to-income ratios were understated. The coborrower’s pay stub for
the period ending June 9, 2007, included a $200 garnishment for child support. The monthly
child support obligation was $867.14 The loan file contained documentation showing that the
recipient filed for termination of the child support three days after the loan closed. However,
there was no documentation in the file to show whether the child support had been terminated
before or after the loan was closed. In addition, based on the telephone inquiry made by OIG to
the County Child Support Division, the child support order was still in effect. HUD Handbook
4155.1, REV-5, section 2-11, provides that in computing the debt-to-income ratios, the lender




13
    By designating 350 square feet as residential storage, the property’s nonresidential area was just below 25 percent
   to qualify for financing under section 203(b). The percentage of nonresidential area (1,000 square feet divided by
   4,078 square feet in percentage) was 24.52 percent.
14
    The monthly child support payment of $866.67 was calculated by multiplying $200 per week by 52 weeks and
   dividing the product by 12 months.

                                                          44
                                                                                 Appendix D-5
                                                                                   Page 2 of 2

must include the monthly housing expenses and all additional recurring charges extending 10
months or more, including payments on installment accounts, child support, or separate
maintenance payments. When the child support obligation is included in computing the debt-to-
income ratios, the back end ratio increases from 49.77 percent to 62.04 percent.

The compensating factor provided by the lender was “excellent reserve after closing.”
According to HUD Handbook 4155.1, REV-5, section 2-13G, this compensating factor requires
a substantial documented cash reserve—at least three months’ worth after closing. However,
based on sections D, the borrowers may not have at least three months’ cash reserve.

D.     Inadequate Verification of Liabilities

The lender did not adequately verify the payment of a contingent liability of the coborrower.
The coborrower’s credit report had a delinquent account with a $1,893 balance. The coborrower
indicated that he was a cosigner of the account and the account was paid off just before the
closing. The updated credit report showed that this liability had been paid. However, there was
no documentation in the file to show who paid the liability. HUD deems the payment of
consumer debt by third parties to be an inducement to purchase. If the liability was paid by
someone who was not a family member, it may be considered an inducement to purchase, and
the sales price should have been reduced by the amount of the payment according to HUD
Handbook 4155.1, REV-5, section 2-10C. Because the payment of the debt took place after the
date of the verification of deposit and there was no bank statement in the file, there is no
assurance that borrowers’ available funds were used to pay the debt. If the debt had been paid
using the borrowers’ funds, the available reserves would have been $814 less than the three
month reserve requirement of Handbook 4155.1, REV-5, section 2-13G, to qualify as a
compensating factor for the high debt-to-income ratios noted in sections B and C.




                                                45
